<html>
<title> - SAFE TRUCKERS ACT OF 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                       SAFE TRUCKERS ACT OF 2006

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON ECONOMIC
         SECURITY, INFRASTRUCTURE PROTECTION, AND CYBERSECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 16, 2006

                               __________

                           Serial No. 109-85

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
33-958                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael T. McCaul, Texas             James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

   Subcommittee on Economic Security, Infrastructure Protection, and 
                             Cybersecurity

                Daniel E. Lungren, California, Chairman

Don Young, Alaska                    Loretta Sanchez, California
Lamar S. Smith, Texas                Edward J. Markey, Massachusetts
John Linder, Georgia                 Norman D. Dicks, Washington
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Mike Rogers, Alabama                 Zoe Lofgren, California
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Katherine Harris, Florida            Bill Pascrell, Jr., New Jersey
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Peter T. King, New York (Ex          Bennie G. Thompson, Mississippi 
Officio)                             (Ex Officio)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel E. Lungren, a Representative in Congress For 
  the State of California, and Chairman, Subcommittee on Economic 
  Security, Infrastructure Protection, and Cybersecurity.........    24
The Honorable Stevan Pearce, a Representative in Congress For the 
  State of New Mexico............................................     1
The Honorable John Linder, a Representative in Congress For the 
  State of Georgia...............................................    24
The Honorable Bennie G. Thompson, a Representative in Congress 
  For the State of Mississippi (Ex Officio)......................     2

                               WITNESSES

Robert Jamison, Deputy Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................     2
  Prepared Statement 4...........................................
David S. McClimon, President, Conway Freight Inc., Representing 
  the American Trucking Association, Inc.:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Todd Spencer, Executive Vice President, Owner-Operator 
  Independent Drivers Association:
  Oral Statement.................................................    19
  Prepared Statement.............................................    23
Cynthia Hilton, Executive Vice President, Institute of Makers of 
  Explosives:
  Oral Statement.................................................    24
  Prepared Statement.............................................    26


                       SAFE TRUCKERS ACT OF 2006

                              ----------                              


                         Friday, June 16, 2006

             U.S. House of Representatives,
                    Committee on Homeland Security,
                         Subcommittee on Economic Security,
                             Infrastructure Protection, and
                                             Cybersecurity,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
Room 311, Cannon The Capitol, Hon. Stevan Pearce presiding.
    Present: Representatives Lungren, Linder, Pearce, and 
Thompson, ex officio.
    Mr. Pearce. If you all are finally ready, we will get 
started here. Excuse us, but the need to get out of town on 
Friday sometimes gets overwhelming.
    The Committee on Homeland Security, Subcommittee on 
Economic Security, Infrastructure Protection, and Cybersecurity 
will come to order. The subcommittee is meeting today to hear 
testimony on H.R.V04, the ``Screening of Applied Fairly and 
Equitably to Truckers Act,'' or the ``SAFE Truckers Act of 
2006.''
    Mr. Pearce. Last November this subcommittee held a hearing 
on TSA's Hazmat endorsement security assessment program. This 
program requires all truck drivers who want to haul hazardous 
materials to undergo a fingerprint--based criminal history 
records check. While the intent of the program was to 
misappropriation of materials that could be used against the 
country in a terrorist attack, from our testimony last November 
and from ongoing subcommittee oversight, it is apparent this 
program is unnecessarily broad and not an efficient use of TSA 
resources.
    The current Hazmat list includes over 4,000 materials and 
is based on environmental and safety concerns. As a result, TSA 
is forced to screen nearly 2.7 million drivers, or 
approximately 25,000 applications, a month. The majority of 
these drivers will probably never haul materials that present a 
real security risk. This is simply a misuse of limited 
resources.
    The SAFE Truckers Act alleviates this burden on TSA by 
focusing the most intensive background checks on those hauling 
materials that pose the greatest risk.
    Without compromising security, I am also concerned about 
the current program's cost and impact on our truckers. 
Currently, all 2.7 million Hazmat truckers will pay fees in 
some States as high as $130. These truckers also face delays of 
lost productivity in traveling to and from limited locations to 
collect the fingerprints necessary for background checks. By 
requiring all Hazmat--endorsed drivers, which represents nearly 
90Sec. rcent of commercial truck drivers, to undergo such a 
comprehensive background records check, we may be discouraging 
or unnecessarily disqualifying otherwise qualified individuals, 
resulting in a shortage of muchneeded drivers.
    The bottom line is, the current program's all-inclusive 
approach is a costly, inefficient, lengthy burden on our 
Nation's truckers, who are vital to this Nation's economy and 
supply chain. The SAFE Truckers Act will provide relief for 
truckers without sacrificing security by employing a risk--
based system to focus the most scrutiny on those drivers 
hauling materials that are true security risks in order to 
eliminate duplicative background checks and increased cost to 
drivers. The SAFE Truckers Act requires that the Department 
issue the permit as part of TWIC. The act further requires that 
the Department review all Federal Government credentialing 
programs to identify common characteristics with the goal of 
eliminating costly redundancies.
    I think this bill begins to address the concerns that this 
committee has heard from interested stakeholders for the last 
year and a half, and I look forward to hearing both TSA's and 
the affected stakeholders' thoughts on approving this much--
needed legislation.
    I would like to thank our witnesses for joining us today. I 
would now recognize the ranking member of the full committee, 
Mr. Thompson, for his comments.
    Mr. Thompson. Thank you very much, Mr. Chairman. And like 
you, I am happy to be here for the hearing.
    I have a number of operations in my district that are 
impacted by this legislation. A number of them are concerned 
that the standard for licensing is for everybody and that it 
should be separated. They have been concerned that there are no 
appeal rights to any denials. And so this is a wonderful 
opportunity; it makes sense.
    The cumbersome process of the hoops many operators have to 
go through is significant too. So I look forward to the 
hearing.
    I would also like to ask unanimous consent to include in 
the record a letter from Congressman Cunningham--Carnahan, 
excuse me--and the Teamsters in support of the legislation.
    Mr. Pearce. Without objection.
    Mr. Thompson. And I look forward to the hearing. I yield 
back.
    [The statement of Mr. Carnahan follows:]

    Retained in Committee files

    Mr. Pearce. Our first panel consists of Mr. Robert Jamison. 
He is the Deputy Administrator of TSA, U.S. Department of 
Homeland Security.
    Mr. Jamison, you have 5 minutes. Your full testimony will 
be put into the record.

      STATEMENT OF ROBERT JAMISON, DEPUTY ADMINISTRATOR, 
         TRANSPORTATION SECURITY ADMINISTRATION, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jamison. Good morning, Congressman Pearce and Ranking 
Member Thompson. Thank you for this opportunity to update you 
on the progress of TSA's Hazmat Assessment Program and to 
comment on the SAFE Truckers Act of 2006.
    In the 16 months since TSA began fingerprint--based checks 
for hazardous material endorsements, required by the U.S. 
PATRIOT Act, we have processed nearly 310,000 applications. We 
have significantly reduced processing time by implementing 
electronic submission requirements, including a Web--based 
initiative to improve an application intake portal for use of 
non--TSA Agent States. Over the last 3 months our average 
processing time for all applicants has been reduced from 17 
days on average to only 10 days, even though the applications 
have risen from 10,000 per month on average to 24,000 per 
month. To improve driver access to the enrollment process we 
have expanded a number of sites to collect fingerprints and 
driver information from 68 sites to a total of 172 sites.
    To date, less than 1 percent of the applicants who apply 
for an endorsement are deemed ineligible. We have processed 
over 3,500 appeals and are focused on approving of the appeals 
process.
    Our analysis suggests that the applicants initially deemed 
ineligible remain so as a result from their decision not to 
follow through on providing TSA with the additional information 
required to approve the Hazmat endorsement application. We 
continue to strongly encourage all applicants to fully avail 
themselves of the appeals process. TSA regularly evaluates its 
systems and processes and, as a result, plans to implement a 
new IT application to further improve the process by reducing 
the number of determinations requiring follow--up, enhancing 
performance and reliability and reducing operating costs.
    We recognize that opportunities exist to reduce duplicative 
requirements with DHS vetting on programs. Staff at TSA is 
collaborating with other components and Federal agencies to 
reduce duplication where possible. One such opportunity is a 
transportation worker's ID card, TWIC. As this process rolls 
out, drivers who have completed Hazmat security threat 
assessment and who must obtain a TWIC card will not be required 
to undergo another threat assessment.
    TSA commends the subcommittee's risk--based approach to 
establishing a security sensitive materials permit program. The 
use of risk--based analysis in making operational decisions is 
one of TSA's fundamental principles. Our efforts are focused on 
increasing the broad baseline of security across transportation 
modes using this approach.
    It is through the lens of risk--based analysis, we welcome 
the opportunity to comment on the SAFE Truckers Act of 2006. I 
want to work with the committee in the days ahead as you 
consider the bill. However, time is needed to coordinate this 
proposal within DHS and the other affected Federal agencies.
    It is important that the act avoid requiring the 
duplication of requirements under the U.S. PATRIOT Act. Also, 
as you look at narrowing the hazardous materials list to 
sensitive security materials, it may be appropriate to consider 
vetting all commercial driver's license holders against 
terrorist watchlist databases. We believe this will raise the 
overall baseline of security.
    Further, development of a sensitive--or security--sensitive 
materials list is a complex task that will require careful 
analysis and thoughtful input of private sector stakeholders 
and government agencies at the Federal, State and local levels.
    TSA will begin to determine how current systems and 
procedures can be delivered to deliver security--sensitive 
materials program. We recognize establishing a new compliance 
and enforcement processes will require time and coordination. 
Moreover, conducting a rulemaking and completing the processing 
of all drivers in 1 year will be a challenge.
    Finally, we remain cognizant and sensitive to the fact that 
there are substantial costs associated with the infrastructure 
conversion and rulemaking to accomplish the bill's goals. As 
such, we are working on duplicative efforts, some of which I 
have described in my testimony today.
    In conclusion, TSA believes there is merit in taking a 
risk--based approach to establishing a list of sensitive--
security--sensitive materials. We look forward to working with 
the subcommittee to resolve the issues I have touched upon 
today and we may address in the future.
    In the meantime, TSA's HME system is working well. We 
continuously seek opportunities to improve it.
    I look forward to your questions.
    [The statement of Mr. Jamison follows:]

                  Prepared Statement of Robert Jamison

    Good morning Chairman Lungren, Ranking Member Sanchez, and Members 
of the Subcommittee. I am pleased to have this opportunity to testify 
on behalf of the Transportation Security Administration (TSA) on the 
security of hazardous materials transported by commercial motor 
vehicles and considerations related to establishing a permit process 
for security sensitive materials.
    Last November, TSA provided the Subcommittee with a full report on 
our hazardous materials (hazmat) threat assessment program implementing 
Section 1012 of the USA PATRIOT Act. Today, I would like to update you 
on the progress we are making.

The Hazmat Threat Assessment Program
    TSA is proud of the progress we have made in implementing the 
hazmat threat assessment program. In the sixteen months since the 
Department of Homeland Security (DHS) began fingerprint-based checks, 
we have processed nearly 310,000 applications. Today, 33 States and the 
District of Columbia participate as Agent States through which TSA 
collects and transmits fingerprint and driver application information 
at 170 enrollment sites. There are 17 Non-TSA Agent States. Recently, 
one of these states elected to have TSA perform collection and 
processing duties beginning later this year.
    TSA has established a comprehensive program, and we continually 
seek opportunities for improvement. We have significantly reduced 
processing time by implementing electronic submission requirements, 
including a web-based application intake portal for use by Non-Agent 
states. Customer service and response times to state queries have been 
significantly enhanced through the introduction of the State Portal, a 
secure web site that provides all states with electronic notification 
of threat assessments for drivers and driver processing status. TSA 
engages daily with state motor vehicle departments, industry 
associations, and other stakeholders to expand the number of sites that 
collect fingerprint and commercial driver information.
    All of these improvements have helped the program process a large 
number of applications in a short time. Since initiation of the 
program, the average processing time for all applicants is 
approximately seventeen days, but for the past three months, the 
average processing time has been reduced to ten days, even as the 
average number of applications received has risen from 10,000 in the 
first months to over 24,000 per month today. TSA has received 308,018 
applications, 3,509 appeal requests, and 385 waiver requests. To date, 
the total number of applicants disqualified is 2,386, less than one 
percent of all applicants.
    Additional improvements anticipated in the near future include an 
updated application that will reduce the number of initial 
determinations requiring follow-up, further decreasing average 
processing times. TSA is considering amending its rules to eliminate 
redundant checks for drivers transferring among states, increasing 
interoperability with other federal agencies that conduct comparable 
checks, and improving operational processes. TSA is moving forward with 
technical improvements to our information technology system that will 
reduce operating costs, improve performance and reliability, and 
enhance security and interoperability.
    After the Transportation Workers Identification Credential (TWIC) 
program rolls out, drivers with a hazardous material endorsement (HME) 
who have already completed a security threat assessment and must obtain 
a TWIC to have unescorted access to secure areas of maritime facilities 
and vessels will not be required to undergo a new threat assessment as 
part of their TWIC application. However, these drivers will have to 
enroll and provide biometrics that are used to verify identity on the 
TWIC and pay an incremental fee to cover those costs.
    As we pursue improvements in the hazmat threat assessment program, 
we are looking at ways to leverage data collection innovations that 
will reduce duplication of effort among DHS vetting and credentialing 
programs. The Department is carefully assessing the interoperability of 
a variety of programs to ensure that they are complementary, while 
working toward the ultimate convergence of our credentialing programs.

Risk-Based Approach to Hazardous Materials Security
    While the hazmat threat assessment program moves forward 
successfully, we are examining TSA's programs in relation to the 
agency's key operating principles. One of these key principles is to 
use risk analysis to make operational decisions, assessing and 
undertaking risk management and mitigation measures based on their 
effect on the total transportation network.
    TSA continues to aggressively address the risk posed by hazardous 
materials moving through domestic supply chains. Through risk-based 
analyses we have implemented a number of programs designed to mitigate 
these risks. Our recent work in freight rail focuses on identifying and 
implementing voluntary security action items designed to mitigate the 
risk of materials that pose a Toxic Inhalation Hazard in domestic 
freight rail transportation. In coordination with DOT we will continue 
to develop and implement risk-based security programs to secure the 
transportation of hazardous materials in all modes.

Security Sensitive Materials Permits
    As the "SAFE Truckers Act of 2006" has only recently been brought 
to our attention, TSA has only preliminary comments today. We will want 
to work with other components of DHS and other federal agencies in 
looking at its potential implications for security. We applaud the 
Subcommittee for taking a risk-based approach in considering this 
issue. In concert with narrowing the list to security sensitive 
materials (SSM), based on risk, it may be appropriate to consider 
vetting all Commercial Driver's License (CDL) holders against terrorist 
watchlist databases.
    One of TSA's preliminary concerns is that the bill would establish 
duplicative requirements for threat assessments for commercial drivers 
transporting hazardous materials. If the bill requires drivers who 
transport SSM to obtain fingerprint-based threat assessments, it may 
duplicate requirements for drivers under the USA PATRIOT Act and the 
Safe, Accountable, Flexible, Efficient Transportation Equity Act: A 
Legacy for Users (SAFETEA-LU).
    The timeframe established by the bill is not sufficient for an 
appropriate regulatory analysis, including the evaluation of costs and 
benefits needed to support a rule. Development of an SSM list is a 
complex task that will requires time for careful analysis. In its 
current form, the bill also does not provide sufficient time to modify 
existing infrastructure to process and adjudicate permit applications 
and to complete the processing of all covered drivers.
    We recommend that the proposed legislation not prejudge the outcome 
of the regulatory analysis. Any modifications to the hazardous 
materials list that forms the basis of threat assessments should be 
developed through the collective efforts of DHS, DOT, other interested 
federal agencies, and industry and other stakeholders. The inclusion of 
radioactive or nuclear materials would be of major interest to numerous 
departments and agencies. The Domestic Nuclear Detection Office, for 
example, would have a strong interest in exactly how that list of 
materials is determined, as well as consistency with lists developed by 
the Nuclear Regulatory Commission, the Department of Energy, DOT, the 
International Atomic Energy Agency, and others. Not to be overlooked is 
the role fulfilled by our state partners. It will be essential that any 
possible modifications to the current regime be done in full 
partnership with them.
    We must analyze the relative risk for diversion and misuse of the 
hazardous materials being considered for exclusion from the background 
requirements. Second, we cannot limit our review to individual 
materials, but rather must consider all possible safety and security 
risks which come from instances where various combinations of 
relatively low risk hazardous materials could result in substantial 
death, injury, or damage to the environment. Third, we must consider 
factors affecting vulnerability to shipments in transport. Finally, we 
must carefully analyze the degree to which driver background checks 
would identify and address those potential vulnerabilities.
    In our regulatory analysis, we would also want to determine the 
population of drivers that would be covered by a new system. Today 
companies often require all their drivers to have an HME on their 
commercial driver's license because of the unpredictable nature of the 
shipments drivers may transport. This gives the company the flexibility 
to match a load with a driver at any given time to satisfy just-in-time 
delivery requirements. Under a potential SSM permit system, a company 
would still need to match specific drivers with a specific short list 
of security sensitive materials. In considering the feasibility of any 
change, it will be important to know whether drivers will be required 
to not only obtain an HME, but also obtain the SSM permit, even though 
the likelihood of transporting SSM may be small. TSA should have the 
opportunity to consider whether establishing a list of SSM would reduce 
shipper options for transporting certain commodities.
    We would also need to consider the potential implications of the 
TWIC program for commercial drivers. The proposed TWIC program would 
require all individuals who require unescorted access to secure areas 
of facilities regulated under the Maritime Transportation Security Act 
to obtain a TWIC. This includes CDL holders transporting general 
freight that need access to ports to load or unload their cargo, not 
just those transporting hazardous materials.
    Serious consideration must be given to how current systems and 
procedures would be converted to the delivery of an SSM permit program. 
Both the TWIC program and the substantial efforts and investments of 
the States in the HME infrastructure and processes would have to be 
considered and evaluated. TSA would want the flexibility to assess 
alternatives for phasing in implementation of an SSM permit program. 
Operationally, 100 percent transition to a fingerprint-based background 
check for the SSM driver population in one year would be very costly. 
Currently, drivers holding an HME undergo a fingerprint-based security 
threat assessment on a rolling, five-year basis (on average) based on 
the renewal dates of drivers' current HME. This evenly distributes the 
processing load and requires less system capacity and manpower.
    Procedural and cost factors for compliance by shippers, including 
technology costs, need to be evaluated, and enforcement procedures, 
including roadside options, for a new permit will also need to be 
established. Today approximately 900,000 law enforcement officers have 
some responsibility for commercial vehicle enforcement. Under the 
current system, law enforcement officers can readily discern whether a 
driver is carrying hazardous materials in amounts requiring placarding 
and whether the driver has the necessary commercial driver's license 
hazmat endorsement. These officers would require new training and 
perhaps implementation of a new support infrastructure if enforcement 
were to be effective. This is an extremely large task and needs to be 
weighed when considering any alternative to the current process.
    We are also concerned that by requiring TSA to issue a permit to a 
commercial driver, TSA is effectively being asked to license 
individuals to transport hazardous materials on the Nation's highways 
and ensure the underlying driver's license is valid and appropriately 
endorsed to transport those materials. This responsibility currently 
falls under the authority of the states and the DOT by statute. DOT, 
through the Federal Motor Carrier Safety Administration develops, 
maintains, and enforces federal regulations including the requirements 
that promote carrier safety and establish safe operating requirements 
for commercial vehicle drivers, carriers, vehicles, and vehicle 
equipment.TSA places a high value on collaboration with other 
government agencies and the recommendations of the private sector to 
improve transportation security. We believe that formation of task 
forces to assess security risks to motor vehicles transporting security 
sensitive material and to review the lists of disqualifying crimes of a 
terrorism security risk is highly relevant and could be beneficial to a 
potential SSM permit program. We would note, however, that DOT is 
already engaged in assessing the vulnerabilities of motor vehicles 
transporting hazardous materials. Unfortunately, the 180 days provided 
by the bill does not provide sufficient time for the appointment of 
task force members, collection of information and data, task force 
deliberation, development of reports, and consideration of task force 
results in agency decision making. Additionally, the Federal Advisory 
Committee Act imposes substantial procedural requirements on any task 
force including non-federal representatives.
    TSA is also concerned about the substantial funding needs that such 
an effort would require. SSM permit user fees may pay for operational 
costs and the expenses involved in performing threat assessments and 
issuing the necessary certifications. However, there are substantial 
costs associated with the infrastructure conversion necessary for such 
an endeavor and notice and comment rulemaking. There is no current 
appropriation for this, and the TSA budget request for FY 2007 does not 
include any such funding to cover these costs, since there is no 
current authorization for this program.
    In conclusion, TSA commends the Subcommittee's efforts to take a 
risk-based approach to the transport of hazardous materials. I hope the 
Subcommittee will consider the complex analytical and operational 
issues that must be considered to ensure security and not cause undue 
burdens on drivers, industry, or government. Time is needed to provide 
a smooth transition if Congress determines this is the proper course, 
and the need to implement an SSM permit process is not immediate. TSA's 
current HME system, including waiver procedures, is working well, and 
we are working closely with DOT's Pipeline and Hazardous Materials 
Safety Administration in looking for areas where there may be 
opportunities for reducing the regulatory burden on shippers and 
carriers.
    TSA looks forward to working with the Subcommittee to address these 
issues.
    Thank you, again, for this opportunity to appear before the 
Subcommittee. I will be pleased to answer any questions you may have.

    Mr. Pearce. Thank you very much, Mr. Jamison, for your 
testimony.
    You had mentioned that one State has called on you all to 
do their processing and collection of data. Which State? And 
have you actually followed through on that?
    Mr. Jamison. The State--we currently have 33 States we have 
the TSA agency in.
    Mr. Pearce. The one that has asked you to do the full 
collection. That is all I am asking.
    Mr. Jamison. Illinois.
    Mr. Pearce. And they--
    Mr. Jamison. We are currently working with them to make 
them an TSA agent. I am not sure when exactly they will come 
online.
    Mr. Pearce. In page 3 of your testimony, you say that it 
might be appropriate to consider vetting all commercial 
drivers, CDL holders, against terrorist watchlist databases.
    What would cause you to say that that is more important 
than some of the other priorities that are in front of you?
    Mr. Jamison. Well, as we take a risk--based approach, we 
agree it may be time now to narrow down this Hazmat list to 
really, really dangerous Hazmat. But as we do that, we think we 
can improve the overall baseline security by having a much less 
intrusive check on the broader CDL license base, because these 
trucks and vehicles have access to a lot of our major 
infrastructure. This type of vetting would be much less 
intrusive than the fingerprint--based criminal history record 
check that will give us an overall baseline security 
improvement. And in combination with the Real ID Act coming 
forward in the future, we think that it will reduce a lot of 
vulnerabilities in the CDL system.
    Mr. Pearce. You think that CDL system has vulnerabilities 
that you can solve by vetting those particular people?
    Mr. Jamison. I think it will help on the vulnerabilities. 
But in combination with the--
    Mr. Pearce. Well, it would help to check every single 
driver out there in the system.
    At what weight limit is your CDL required? It is about 
26,000 pounds, I will just tell you.
    So how much sodium nitrate is necessary to really blow up a 
building, for instance? How much was in the Oklahoma bombing?
    Mr. Jamison. I believe the Oklahoma bombing, there was 
2,500 pounds, I believe.
    Mr. Pearce. Two thousand five hundred pounds. So you have 
people with access to everything that don't have to have a CDL 
driver's license of any kind, and yet you are going to say that 
you are going to make the system safer by choosing these people 
with CDLs; and I just don't see where you are getting the 
information from. I don't see why you are setting the 
priorities there, and I don't understand why the comments are 
made in your testimony.
    It seems like you really should look at the risks rather 
than just saying, we can improve the systems incrementally by 
just vetting all the CDL drivers. That seems to be a knee--jerk 
reaction, frankly, from the employer that has had to comply 
with too many regulations that just don't make sense in any 
regard.
    And in my previous business, we moved equipment over the 
road by trucks and CDL drivers; so I am very familiar with what 
you are suggesting here, and I am not sure that I think it is 
going to accomplish much of anything.
    You talked about the TWIC card becoming maybe the full 
identification card. Have you discussed this with law 
enforcement agencies and with the law enforcement community?
    Mr. Jamison. As far as in regards to replacing the HME?
    Mr. Pearce. Yes. If it becomes the full identification 
card, obviously it is going to replace several other things, 
and it just seems like that is a much broader discussion than 
just by TSA itself.
    Mr. Jamison. Currently we are having broad discussions, as 
you know, in the NPRN process with the TWIC rulemaking which 
includes all stakeholders. As we go through that process, we 
are going to learn a lot more, and before we move to make that 
a broader application across the other transportation modes, we 
are going to certainly engage all stakeholders, including-
    Mr. Pearce. Can you give me an idea of the stakeholder list 
that you are currently engaged in this particular discussion 
with?
    Mr. Jamison. Of course. All the port workers, the drainage 
community, the maritime industry, including Coast Guard and all 
the Merchant Mariners, as well as several other populations.
    I would be happy to follow up with a full list.
    Mr. Pearce. If you would provide a full list, I certainly 
would appreciate that.
    You have got concerns about implementing the bill. At what 
point are you going to make the decision to actually begin to 
take things off the list of hazardous substances? When are we 
going to know the outcome of those internal discussions?
    Mr. Jamison. We hope to--we are undergoing in-depth 
analysis of the whole Hazmat chain right now, including 
trucking, rail, across the transportation spectrum from origin 
to destination, full supply chain analysis. We hope to have 
some initial results of that from what we think are the most 
high--risk chemicals in the very near future, in the summer 
time frame; and we would like to work with the committee as 
they entertain coming up with an SSM list.
    Mr. Pearce. Can you get me any closer to that than summer 
time frame? What is the timing? Because too often we are 
sitting up here on these oversight committees and we hear 
summer time frame, and it becomes winter time frame or fall, 
and we simply go through decades like that.
    Mr. Jamison. Well, we have an in--depth process. We can 
identify fairly quickly which substances we are most concerned 
about, but the concern is, we don't jump to conclusions until 
we have done a full analysis of where these chemicals are 
moving through the system, where the risk and vulnerabilities 
are, to make sure we understand the existing systems that are 
in place, and leverage those networks to know the full 
implications and the full vulnerabilities.
    But we could forward a list to you based off what our 
analysis is on the chemicals in a very short time frame, within 
a few weeks.
    Mr. Pearce. So you have not yet considered whether hauling 
women's nail polish needs to be on your full list, that that 
hasn't yet sprung out as one of the things that ought to be 
weeded off the list yet. Is that correct?
    Mr. Jamison. I would say that is not correct. I mean, we 
are fully aware that putting Hazmat extensions on people that 
are hauling paint or fingernail polish is not appropriate.
    Mr. Pearce. My question is, when are those obvious 
exceptions? I know there are things that come very close to the 
line, but when are those obvious exceptions going to be 
delineated and told to the full committee and to the community 
at large?
    Mr. Jamison. We can forward to the committee over the--
within the next 2 weeks which chemicals we think are very, very 
susceptible to coming off the list. We can do that within 2 
weeks.
    Mr. Pearce. But the question that is being begged is, when 
are they going to be taken off? When are you actually going to 
start making decisions that make this thing simpler rather than 
more complex?
    Mr. Jamison. I think it is a combination of looking at the 
broader picture to make the determination of what we can do, 
but like I said, we support the committee's move to narrow the 
list. We would like to do that, but we would like to look at 
the broader issues we would like to add.
    Mr. Pearce. I know my time has expired, sir. I just keep 
trying to get an answer.
    You are telling me there are things that do not fit the 
list, but you cannot tell me that you are going to pull the 
trigger and actually do anything to get them off the list. I 
find that very disconcerting, and I will continue to find that 
very disconcerting.
    I think you really need to start making decisions inside 
the Agency and start showing a simplified list to the American 
public, because right now it is in a state of flux, and the 
people who are trying to make a living out there, the drivers, 
the people who are hauling freight, do not know what you are 
going to do; and that uncertainty is a very difficult thing for 
business.
    And that is what I am telling you, that you need to start 
pulling the trigger on some of these things. There are obvious 
exceptions, but there are obvious things that do not fit on the 
Hazmat list.
    Mr. Jamison. I appreciate your concerns, and we look 
forward to doing that.
    The other provision that we just need to keep in mind is, 
currently we had no flexibility to narrow the list ourselves 
because of the provisions of the PATRIOT Act, which require us 
to require a Hazmat extension for all placard loads as 
determined by the Department of Transportation. So it is not 
within our purview to take the items off the list with the 
current statute.
    Mr. Pearce. That would have been the appropriate question 
up front. I will come back in the second round, and I will ask 
what legislation--so that your staff is ready, what legislation 
we need to give you the oversight capability, or give you 
whatever freedom.
    But to have the bureaucracy bound up in legislation, that 
is the correct answer up front; and then we will be happy to do 
what we can to open that up.
    Mr. Thompson.
    Mr.Thompson. Thank you very much, Mr. Chairman.
    Mr. Jamison, if a trucker already has a hazardous material 
endorsement, do you think he should be charged for a TWIC card?
    Mr. Jamison. Currently, in the NPRN proposal, he is going 
to be charged only the additional delta to get a biometric and 
to get the handling and issuance of an access card that is 
going to allow him to enter a secure facility. So right now he 
will not be charged to go through another security threat 
assessment. He will be charged for the additional cost of 
issuing a new medium and a new access card and the process that 
goes behind capturing a biometric to put on that card.
    Mr. Thompson. So how much is that?
    Mr. Jamison. Current estimate is, it is about $105.
    Mr. Thompson. $105. So can you give me--what would a 
trucker normally have to pay to get regular hazardous 
endorsement?
    Mr. Jamison. Currently, I am not familiar with exactly what 
the State fees are. The State fees average $91 across the 
system. If you are a TSA agent, just for our Hazmat extension 
it is $94.
    So the $105 would be in addition to the $91 average across 
the system.
    Mr. Thompson. So we are just adding an additional cost?
    Mr. Jamison. It would be an add--on cost to the Hazmat 
extension, yes. The Hazmat extension is required if that driver 
is required to get secure access into a port facility.
    Mr. Thompson. So I guess some of this redundancy in the 
process concerns me a little bit.
    What is the difference between the information required for 
the hazardous material endorsement versus the rest of the 
endorsement? Is it the same information they send to TSA?
    Mr. Jamison. The checks are consistent and the background 
checks are fairly consistent. The difference is, one, the 
enrollment process, the collection of the different-- of 
additional biometric information. And the processing and 
reissuance of the card, the technology of producing a readable 
card that can be used to access a reader in the port is a large 
portion of that expense.
    Mr. Thompson. So your testimony is that, now, additional 
sites are being added so people won't have to go hundreds of 
miles to get the certification?
    Mr. Jamison. When we rolled out the program in January of 
2005, we had 68 sites, I believe; and now we are up to 172. I 
think we have got a couple of sites that were pending, and we 
continue to work closely with the States to try to come up with 
creative ways, if they have issues with drivers not being able 
to get access to the facilities. But we feel like we have 
greatly improved access over the course of the roll--out in the 
last 16 months.
    Mr. Thompson. You also state in your testimony that there 
is not sufficient time for regulatory analysis. How much time 
do you think we need?
    Mr. Jamison. I think we need to let the regulatory process 
and the rulemaking process play out, so going through that open 
public comment period, we need to make sure we have enough time 
to do that. We can work to expedite that as greatly as 
possible, but it is really hard to estimate exactly how long 
that is going to take.
    Mr. Thompson. You don't have any idea? But you make 
reference that it is not enough, on one hand, in your 
testimony, but you don't have an idea as to how much.
    Mr. Jamison. It is going to take substantially longer than 
a year we think. We can work to do what we can to expedite it.
    As I said, as we get more opportunity to look at the bill 
and work through our other Federal partners we can come up with 
a better determination. We are as committed as we can be to 
expedite the process. We are just putting a precautionary 
statement out there that we are concerned about the time frame.
    Mr. Thompson. And in line with what the chairman had asked 
earlier, in order to develop this security--sensitive materials 
list, you also say you need more time. How much time?
    Mr. Jamison. As I said earlier--mean, we can give you a 
list of chemicals that we think are our highest priority from a 
Hazmat standpoint in pretty short order, within weeks.
    The broader issue of taking more time to do a complete 
assessment of the whole supply chain and other vulnerabilities 
is what we are working on, but we can share a list of what we 
think is most important in a short time frame.
    But I again remind you that currently we don't have the 
flexibility with the statute to pull those items off the list 
required for a Hazmat extension.
    Mr. Thompson. I yield back.
    Mr. Pearce. Mr. Jamison, on the question of your capability 
to do this, and in your not being permitted to change the 
Hazmat list under the PATRIOT Act, this legislation 
accomplishes that, does it not? Doesn't it give you the 
flexibility to then have the power to change that?
    Mr. Jamison. The way the bill is currently drafted, I read 
it as creating a duplicative requirement where we still have to 
abide by the PATRIOT Act, as well as the new requirement, is 
the way we read it. That was our concern about making sure we 
don't have a duplicative process.
    Mr. Pearce. Sure. And the committee has just informed me 
that in full committee we will go ahead and address that.
    But given the fact that the duplication is going to be 
taken care of, does this legislation not free your hands up the 
way that you said you need?
    Mr. Jamison. It would give us some flexibility, yes, sir.
    Mr. Pearce. So you state you are in favor, substantively, 
of the bill, but you are worried about the implementation. 
Describe to me the worry about implementation that you have.
    Mr. Jamison. The only worry is, as I say, we haven't had 
long to look at this. We want to continue to look at this bill.
    We are overwhelmingly supportive of the concept of 
narrowing the list. We think that that is a good risk--based 
approach. We just need to make sure that we fully understand 
implementation, especially as it ties to other affected 
agencies, DOT and others.
    But we are supportive. We want to work with you on this 
legislation.
    Mr. Pearce. In your testimony, you are talking about DHS 
and DOT cooperating on really the hazardous materials list. Is 
the mission of DOT similar enough to yours that you would 
really--I mean, once they establish the Hazmat list, that is, 
materials that DOT is concerned about having an effect on 
drinking water and those things that are of valid concerns, but 
certainly not the same sorts of concerns that would arise from 
terrorist concerns.
    So as I am reading this, all I see is a lot of bureaucratic 
time involved, and I am not certain why. Can you explain to me 
why it would be necessary to sit down with DOT? They have 
already established the list. It seems like now your 
requirement is to figure out which ones apply to Homeland 
Security and to TSA.
    Can't you simply go through the list and pull the trigger 
on the ones--I am not sure what benefit it is to have DOT 
sitting in the room looking over your shoulder, sitting across 
the table. Can you tell me a little bit about why that 
statement is in there?
    Mr. Jamison. Sure.
    First of all, one--both the Pipeline Safety Administration 
as well as Federal Motor Carriers have a lot of expertise on 
Hazmat, and we want to make sure they are involved. They are 
involved working crew, so working through their rolls and so 
forth is very important.
    Just--for example, one of our biggest concerns, and we 
think it is manageable and we need to work through it, is the 
enforcement process. Right now, through motor carriers and our 
State and Federal law enforcement agencies, it is fairly easily 
cut that if a vehicle is placarded, they have a got a Hazmat 
extension requirement, and it is an easy enforcement issue for 
them.
    As we go through that and narrow down that list, we need to 
work with them on how it is going to be enforced, what the 
implications are, so we make sure that we get the full intent 
of what the legislation is trying to accomplish as implemented.
    So that is just one example, but there are other examples 
like that.
    Mr. Pearce. In the next paragraph you talk about diversion 
and misuse of hazardous materials. That term ``misuse'' is very 
broad. In other words, I think I understand what the intent of 
the Homeland Security Department is, and TSA, and I think I 
understand the intent of checking drivers to make sure they 
don't have access to places and things that can do great 
damage. But the term ``misuse,'' to me, is very broad.
    Again, speaking as somebody who has tried to put trucks on 
the road and seen DOT, both statewide and Federal DOT, begin to 
develop regulations, this part concerns me quite a bit. Tell me 
a little bit about your concept.
    Mr. Jamison. Well, I think misuse is a broad statement. 
These are hazardous materials. We are concerned about 
accumulation of these, even in small quantities over a long 
period of time by a transporter, as well other intentions of 
how these might be used to attack our major infrastructure. But 
it--point well taken; it is a broad term.
    Mr. Pearce. Mr. Thompson, you have further questions?
    Mr. Thompson. Mr. Chairman, I have one additional question. 
Mr. Jamison, we will be taking up the SAFE Truckers Act in the 
not--too--distant future; and we have a section of the bill 
that would not require a fingerprint background check for 
truckers transporting nonsensitive security material. Does TSA 
support that?
    Mr. Jamison. As I said earlier, we do support the narrowing 
of the list, which would include not having all Hazmat 
extension drivers have to have a fingerprint criminal history 
records check. We would like to work with the committee to 
determine whether or not that broad--based terrorist watchlist 
database check is appropriate. As I mentioned earlier to 
Congressman Pearce, we do think that will raise a baseline of 
security.
    We know that there has been an interest by terrorist 
organizations to acquire CDLs. That is one of the reason that 
we think that would be helpful to us. And again, in combination 
with the REAL ID Act, that is going to make sure that we get 
better verification of the people that are getting the driver's 
license, we think that will raise the baseline of security.
    Mr. Thompson. In support of that, then, would you support 
the development of a memorandum of understanding between the 
Department of Transportation and the Department of Homeland 
Security?
    Mr. Jamison. Absolutely.
    Mr. Thompson. Do you have one?
    Mr. Jamison. We have got an overarching DHS and DOT 
memorandum of understanding. We have got annexes on transit, 
currently working with Federal--the Pipeline and Hazardous 
Material and Safety Administration on a draft of an MOU for 
that particular annex that will affect a lot of these issues.
    Mr. Thompson. Any idea of when it will be completed?
    Mr. Jamison. I think it will be completed within this 
month. We are both committed. I was on the phone yesterday with 
leadership at PHMSA, trying to push this along. They are 
committed to doing it. We are committed to doing it. We think 
we can get it done very quickly.
    Mr. Thompson. Mr. Chairman, I would like, once it is 
completed, for the committee to at least be provided a copy of 
that memorandum.
    Mr. Pearce. Absolutely, I agree. And we are going to go 
ahead and move onto the next panel.
    Mr. Jamison, you will be dismissed. We look forward to 
getting the particular things that we talked about, the 2 weeks 
of looking at the things you have already established and the 
memorandum of understanding, the list of stakeholders that have 
been involved. But we do appreciate your testimony and your 
coming for questions today.
    Mr. Jamison. Thank you.
    Mr. Pearce. The Chair now calls the second panel to the 
stand.
    We are joined today by Mr. David S. McClimon. He is here on 
behalf of the American Trucking Association. He is the 
President of Con--way Freight Inc. Mr. Todd Spencer is the 
Executive Vice President of the Owner--Operator Independent 
Drivers Association. And Ms. Cynthia Hilton is the Executive 
Vice President of Governmental Affairs, Institute of Makers of 
Explosives.
    Again, I would remind the witnesses that we are trying to 
limit our statements to 5 minutes. Your full written testimony 
is going to appear in the written record of the committee.
    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify today on behalf of American Trucking 
Associations, Inc. ("ATA") on the subject of screen
    Mr. Pearce. And at this time I would recognize Mr. 
McClimon. Thank you very much for coming.

STATEMENT OF DAVID S. McCLIMON, PRESIDENT, CONWAY FREIGHT INC., 
         ON BEHALF OF THE AMERICAN TRUCKING ASSOCIATION

    Mr. McClimon. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for inviting me to testify today on 
behalf of the American Trucking Association on the subject of 
SAFE Truckers Act. My name is Dave McClimon. I am President of 
Conway Freight Inc., a $2.8 billion freight transport company 
headquartered in Ann Arbor, Michigan, with 21,000 employees 
located in 440 service centers throughout the United States and 
Canada. I have submitted my written testimony for inclusion in 
the record.
    I would like to express my appreciation and gratitude to 
this subcommittee for its continued interest and attention to 
TSA's implementation of the Hazmat background check required by 
the U.S. PATRIOT Act.
    Mr. Chairman, in light of the introduction of the SAFE 
Truckers Act by you and several members of this subcommittee, 
it seems there is general agreement that the current Hazmat 
background check process is not satisfactory. Today, we have an 
overly broad program whose excessive cost and burdens far 
exceed the benefits to homeland security.
    The SAFE Truckers Act is necessary to appropriately narrow 
the focus and more efficiently achieve our shared security 
objective. By focusing fingerprint--based screening on drivers 
who transport Hazmat that possesses significant risk to 
homeland security, rather than screening all drivers who 
transport any Hazmat, the SAFE Truckers Act will significant 
enhance security.
    From a security perspective, not all Hazmat is created 
equal. Materials designated as Hazmat have been so designated 
due to characteristics that require special consideration while 
handling or during cleanup in the event of an accidental 
release. Hazmat includes commodities like paint, perfume and 
soft drink concentrate. These are not commodities that would be 
attractive to a terrorist as a weapon. Passage of legislation 
like the SAFE Truckers Act is necessary to differentiate 
between Hazmat that possesses a significant threat to homeland 
security and Hazmat that does not.
    At my company, which is like many other trucking companies 
when it comes to Hazmat transportation, Hazmat shipments only 
make up roughly 3.5Sec. rcent of our overall shipments. This 
translates to approximately 2,000 shipments daily. To 
effectively transport these shipments on behalf of our 
customers, we require all of our 14,500 drivers to have a 
Hazmat endorsement, and we are now paying the fees charged to 
them for the background check.
    Our most frequently transported Hazmat is paint or paint--
related material -- again, not a threat to homeland security. 
Yet a significant amount of time and money is spent on 
screening individuals who transport paint and similarly 
nonweaponized products.
    For illustrative purposes, if the list of materials 
identified as security sensitive neared the list of materials 
that Congress identified as requiring carriers to obtain a 
Federal permit, my company would only have 16 covered shipments 
a day. We would not require our 14,500 drivers to go through 
the fingerprint--based screening. Our drivers would save time 
and avoid the inconvenience. We would save money, and the focus 
would be on real risks to homeland security.
    ATA is encouraged by the introduction of the SAFE Truckers 
Act. With some suggested modifications, which I can briefly 
discuss, we believe the SAFE Truckers Act can become a bill we 
can enthusiastically support.
    First, the bill needs to be modified so that the 
fingerprint--based background check required for permit under 
the SAFE Truckers Act replaces and is not simply in addition to 
the current fingerprint--based background check required under 
the PATRIOT Act provision. The trucking industry is facing 
enough background checks as it is.
    Second, the ATA is concerned that the SAFE Truckers Act may 
be creating a different TWIC; since the disqualifying criteria 
for the security sensitive permit and the TWIC are the same and 
the same databases are checked, there does not appear to be any 
need to modify the TWIC. The same TWIC that will demonstrate a 
truck driver has successfully been screened for access to 
maritime ports should also serve as the security--sensitive 
material permit.
    Third, the interstate trucking industry relies on 
uniformity and thus benefits from Federal statutes preempting 
State laws in several areas. Homeland security would seem to be 
an appropriate area. Permitting States to require checks of 
their own database rather than requiring States to upload the 
relevant data to the Federal database results in lessened 
security nationwide.
    Fourth and finally, Congress has already recognized that 
failure to notify employers of the final security threat 
assessment determination under the current Hazmat background 
check program creates an unnecessary risk. Congress addressed 
that risk by requiring employer notification under the current 
Hazmat background check program as part of the Highway 
Authorization Bill.
    Employers should similarly be notified under the program to 
be established by the SAFE Truckers Act.
    I thank you for the opportunity to testify today. The 
industry appreciates the efforts by the members of this 
subcommittee to achieve our shared homeland security objective 
in a rational manner.
    My colleagues in the trucking industry have done a lot, 
most of it voluntarily, to enhance the security of the freight 
transportation we provide. In return, we only ask for a 
reasonable, risk--based approach as to protecting the homeland.
    I would be happy to take any questions.
    Mr. Pearce. Thank you, Mr. McClimon.

                Prepared Statement of David S. McClimon

    Mr. Chairman and members of the Subcommittee, thank you for 
inviting me to testify today on behalf of American Trucking 
Associations, Inc. ("ATA") on the subject of screening truck drivers 
transporting hazardous materials ("hazmat"). My name is David McClimon. 
I am President of Conway Freight Inc., a less than truckload carrier 
headquartered in Ann Arbor, Michigan. Conway Freight Inc. is a $2.8 
billion freight transport company with over 21,000 employees located in 
440 service centers located throughout the United States and Canada. I 
am here on behalf of ATA, a federation of motor carriers, state 
trucking associations, and national trucking conferences created to 
promote and protect the interests of the trucking industry. ATA's 
membership includes more than 2,000 trucking companies and industry 
suppliers of equipment and services. Directly and through its 
affiliated organizations, ATA encompasses over 37,000 companies and 
every type and class of motor carrier operation.
    ATA appreciated the opportunity to testify before this Subcommittee 
on reforming hazmat security last November. While many of the points in 
that testimony remain equally relevant today, I will try to refrain 
from being repetitive. ATA appreciates the Subcommittee's interest and 
continued attention to this matter. ATA would like to thank Chairman 
Lungren, Ranking Member Sanchez, and other Members for introducing the 
SAFE Truckers Act of 2006 (H.R. 5604), which embodies a common sense, 
risk-based approach to the threats posed by the transportation of 
certain materials.
Overview:
    Shortly after the tragic events of September 11, 2001, Congress 
passed the USA PATRIOT Act in an effort to better secure the United 
States against future terrorist attacks. Among its numerous provisions 
was a requirement that all drivers seeking, renewing, or transferring a 
hazardous materials endorsement ("HME") to their commercial driver's 
license ("CDL") had to undergo a security threat assessment. While the 
provision was no doubt well-intentioned, it was enacted with little 
debate or discussion. Unfortunately, it has led to the unfortunate 
result that a driver must subject him/herself to a costly and 
burdensome security threat assessment in order to be authorized to 
transport such everyday hazmat as paint, perfume and soft drink 
concentrate (which require a HME when transported above certain 
threshold quantities). ATA believes that requiring security threat 
assessments of individuals that transport paint, perfume and other 
everyday commodities was an unintended consequence of legislation meant 
to protect against real risks to homeland security, i.e., 
transportation of security sensitive materials.
    The leadership at the Department of Homeland Security ("DHS") and 
the Transportation Security Administration ("TSA") has embraced the 
notion of a risk-based approach to security. The SAFE Truckers Act 
provides a legislative framework authorizing DHS and TSA to implement a 
risk-based approach. It requires DHS to specifically identify materials 
in amounts and form that pose a significant risk to homeland security 
due to their potential for use in an act of terrorism. Drivers who 
transport these identified materials above designated quantities would 
be required to undergo a fingerprint-based security threat assessment. 
Drivers and their employers who do not transport materials that are 
identified as posing a significant risk would not have to bear the 
costs and burden of undergoing a fingerprint-based security threat 
assessment. This approach will allow for appropriate focus on the 
security risk without jeopardizing the ability of motor carriers and 
drivers to continue transporting those materials which do not pose a 
significant risk from a security standpoint.
    My company, Conway Freight Inc., is like many other trucking 
companies when it comes to hazmat transportation. Although hazmat 
shipments only make up roughly 3.5% of our overall shipments (roughly 
2,000 hazmat shipments daily), all of our 14,500 drivers have HME's. 
From an operations standpoint, we often do not know in advance which 
drivers will be called upon to transport hazmat and therefore must 
ensure that all of our drivers possess a valid HME. However, our most 
frequently transported hazmat is paint or paint-related material. We do 
not see why it is necessary to subject all of these drivers to an 
additional security threat assessment on top of meeting the 
longstanding safety requirements as currently set forth in the HME 
regulations. For illustrative purposes, if the list of materials 
identified as posing a significant security risk mirrored the list of 
materials for which Congress requires carriers to obtain a special 
security permit (the "Section 5109 list"), my company would only have 
16 covered shipments per day. We would be able to narrowly focus the 
security requirements, including the fingerprint-based security threat 
assessments, on the drivers of these security sensitive shipments.
    The trucking industry has long been dedicated to improving the 
safety of truck transportation. Similarly, the trucking industry has 
done much - most of it voluntarily - to ensure the security of truck 
transportation. It is in the industry's interest from both a customer 
relations perspective and a financial bottom line perspective. At Con-
Way, even though it is not required, we do criminal history record 
checks on our drivers using third party services that review available 
records from pertinent jurisdictions. However, at a time when the 
public and private sectors alike have limited resources, our security 
efforts must be focused on the most significant risks. The imposition 
of burdensome and costly programs governing the transportation of 
hazmat, such as the hazmat background check program, threatens to erode 
the industry's ability to continue to deliver the goods that the 
consumer expects. By determining what hazmat truly poses a significant 
risk and not requiring a fingerprint-based threat assessment for 
drivers transporting non-threatening hazmat commodities, Congress will 
be eliminating many of the costs and burdens imposed by TSA's 
implementation of the USA PATRIOT Act provision while still promoting 
and protecting homeland security.

From a Security Perspective, Not All Hazmat is Created Equally
There is a need to distinguish hazmat that poses a risk to homeland 
security from hazmat that poses no significant security risk.
    Congress was rightly concerned about the security of transportation 
of certain hazmat when it passed the PATRIOT Act. However, by tying the 
security assessment program to the issuance, transfer or renewal of the 
HME, Congress greatly overshot the mark. Drivers who haul any placarded 
load, regardless of the nature of the hazmat, are subject to a 
fingerprint-based background check. The SAFE Truckers Act would 
recalibrate the program and direct DHS to focus on those materials that 
truly pose a significant risk to homeland security.
    Materials that have been designated as hazmat by the Secretary of 
Transportation have been so designated due to characteristics that 
require special safety considerations while the material is being 
handled or during clean-up in the event of a release. Similarly, the 
CDL has always been utilized to indicate a driver's qualification to 
safely drive a commercial motor vehicle and, with respect to the hazmat 
endorsement, as a measure of the driver's knowledge of the hazmat 
regulations to safely transport placarded quantities of hazmat.
    The security objective associated with screening individuals in the 
transportation sector is significantly different from the safety 
objective underlying the hazmat regulations and the qualifications for 
an individual to obtain a HME. Therefore, experts in security (both 
within and outside government) need to closely examine the universe of 
hazmat from the perspective of risk to homeland security. While parties 
may disagree as to what materials or quantities should or should not be 
designated security sensitive, the SAFE Truckers Act provides much-
needed guidance on where the focus should be; namely, materials that 
pose a significant risk due to potential for use in an act of 
terrorism. We believe that all parties will agree that items like 
paint, perfume, and soft drink concentrate do not fall within the 
criteria. ATA is pleased that the SAFE Truckers Act provides that the 
designation of materials as security sensitive shall be finalized only 
after notice and opportunity for public comment.

If screening is still deemed necessary for drivers who transport hazmat 
that is not a security sensitive material, then it should be name-based 
instead of fingerprint-based.
    TSA designed the current hazmat background check program to be 
fingerprint-based, although the terrorist databases and watch lists are 
populated with names only and the criminal history records databases 
can be searched using names (as evidenced by the National Instant 
Criminal Background Check System ("NICS") utilized to check the 
criminal backgrounds of gun purchasers). This requirement has added 
significant costs: both direct costs in terms of fees charged to offset 
the costs of collecting and processing fingerprints ($94 in the 
majority of states) and indirect costs in terms of driver time off work 
(a full day off in some states, such as Montana, with limited 
fingerprint collection centers). These costs and the added 
inconvenience to drivers - not the prospect of being found to be a 
terrorist - are dissuading more and more drivers from obtaining 
HMEs.\1\
---------------------------------------------------------------------------
    \1\To our knowledge, the only publicly available numbers for the 
HME background check program from TSA were contained in a November 
report to Congress required by the highway bill. As of November 2005, 
TSA stated they had processed 88,782 applications nationwide. 
Conservatively assuming the program really got started on May 31, 2005 
(when it became effective for renewals and transfers as opposed to the 
January 31, 2005 date for new applicants), the TSA number projects to a 
monthly average of 17,800 applications and 213,600 per year. Over 5 
years, the projected number of applications is 1.068 million -- far 
short of the 2.7 million HME drivers that TSA stated existed prior to 
commencement of the background check program.
---------------------------------------------------------------------------
    The SAFE Truckers Act properly focuses a fingerprint-based 
background check on designated security sensitive materials. The 
industry can accept reasonable costs associated with this risk-based 
approach, requiring a fingerprint-based check. However, ATA recommends 
that the SAFE Truckers Act also include provisions to eliminate the 
fingerprint-based screening for hazmat that is not security sensitive 
and, if any background check is retained, that it be limited to name-
based screening. Name-based screening would eliminate the need to 
travel great distances to submit fingerprints and should not cost more 
than a nominal fee, if anything (TSA has conducted numerous name-based 
checks of individuals, including the 2.7 million HME holders, without 
charging additional fees). The industry does not need a security 
sensitive permit program on top of preserving the current hazmat 
background check program as is.

Suggested Improvements to the SAFE Truckers Act
    ATA is encouraged by the introduction of the SAFE Truckers Act. 
With some suggested modifications, the SAFE Truckers Act can first and 
foremost address specifically identified risks to homeland security 
posed by transportation of security sensitive materials without unduly 
burdening those that rely on the efficient transportation of hazmat 
that does not pose a significant risk. ATA looks forward to working 
with the Members of this Subcommittee to enact a bill the trucking 
industry can fully support.

The security sensitive material permit program must modify and replace 
part of the existing hazmat background check program - not simply 
create an additional program.
    ATA's support of the bill presumes that the legislation will be 
modified during Subcommittee deliberations to address some of the 
industry's substantial concerns. The primary concern, as mentioned 
before, is that the fingerprint-based background check required for a 
security sensitive material permit should replace - and not simply be 
in addition to - the current background check required under 49 U.S.C. 
5103a. Simply put, the States should be prohibited from requiring a 
fingerprint-based background check to obtain a simple HME. The federal 
government should be responsible for screening and permitting of 
individuals transporting security sensitive materials.

The security sensitive material permit program should be seamlessly 
integrated into a global screening solution.
    This Subcommittee has oversight of a number of security programs 
that require threat assessments of individuals. In fact, this 
Subcommittee recently worked on comprehensive port security legislation 
that affects truck drivers, including addressing issues with the 
Transportation Worker Identification Credential ("TWIC"). These 
security programs should not be conceived and then administered in a 
vacuum. They should be integrated and coordinated in a manner to avoid 
duplication to the maximum extent possible.
    Specifically, ATA is encouraged by the language in the SAFE 
Truckers Act that calls for integration of the security sensitive 
material permit with the TWIC. Yet even so, ATA has reservations that 
the legislation may be unnecessarily complicating matters. Because the 
disqualifying criteria for the security sensitive material permit and 
the TWIC card are identical, it seems that the TWIC, without further 
modification, could serve as the security sensitive material permit. 
The TWIC would indicate that an individual has successfully completed a 
fingerprint-based security threat assessment (a requirement for the 
security sensitive material permit). Additionally, since security 
sensitive materials will in all likelihood be a subset of hazmat, the 
individual will also have a CDL with a HME. These documents would be 
sufficient to demonstrate to enforcement officials that a driver is 
authorized to transport security sensitive materials from both a safety 
and a security perspective.
    The intent of the TWIC was to establish one background check and 
one credential for transportation workers. Trucks connect various 
secure areas and facilities. Wherever possible, the screening and 
credentialing programs for access to these secure areas, and for 
transportation of security sensitive materials, should be brought 
within one check resulting in one credential. The time to address this, 
with respect to the security sensitive material permit, is now. Past 
experience has shown that we cannot rely on DHS or TSA to achieve this 
on their own accord. The same TWIC that will demonstrate a truck driver 
has successfully been screened for access to maritime ports should also 
serve, in conjunction with the HME, as the security sensitive material 
permit.

Uniformity is necessary to achieve a consistent level of security 
nationwide.
    The industry has another concern that impacts the SAFE Truckers Act 
and other security screening programs - the need for uniformity. 
Homeland security is one of the preeminent federal interests. 
Permitting states to implement their own screening requirements not 
only leads to confusion and greater costs but also jeopardizes the 
collective security of the whole. Within the current hazmat background 
check program, the state of New York requires a check of the state's 
criminal history records databases in addition to the federal criminal 
history records. If the state of New York has properly uploaded all its 
appropriate criminal history records into the federal database, there 
is no need to check the state databases in addition to the federal 
database. However, if the state of New York has not uploaded all of its 
data, then the other states (which rely on the federal database when 
conducting criminal history record searches) are put at risk. For 
example, an individual applying in Connecticut could be granted a 
security sensitive material permit where that same individual could be 
denied if applying in New York, since New York had information it did 
not share with the federal database. This is no way to provide security 
nationwide. The solution is to preempt states from adding additional 
screening requirements where the federal government has already set in 
place a program and encourage the states to timely upload the 
appropriate data into the federal databases.

Notification to the employer is necessary to ensure the most effective 
security.
    Congress has recognized that failure to notify employers of the 
final security threat assessment determination under the current hazmat 
background check program creates an unnecessary risk. Therefore, as 
part of the highway reauthorization bill, Congress enacted a provision 
authorizing notification of the employer when TSA has finally 
determined that a driver poses a security risk warranting denial of the 
HME. The same rationale that led to Congressional action holds true for 
the security sensitive material permit program proposed under the SAFE 
Truckers Act. We strongly encourage the Subcommittee to restore the 
employer notification requirement in the event a driver is finally 
determined to pose a security risk warranting denial of a security 
sensitive material permit.

Conclusion
    Mr. Chairman and members of the Subcommittee, I thank you for the 
opportunity to share with you the trucking industry's views on the 
current hazmat background check program and the recently introduced 
SAFE Truckers Act. If the security sensitive materials permit program 
established by the bill replaces the current fingerprint-based 
screening of individuals transporting any hazmat, the trucking industry 
enthusiastically supports the legislation. If DHS and TSA truly are 
committed to a risk-based approach to security, then the SAFE Truckers 
Act grants them the authority to act on that commitment. ATA 
appreciates the efforts by this Subcommittee to achieve security 
rationally and reasonably.

    Mr. Pearce. Mr. Spencer, we have a requirement that each 
presenter be better than the last. Mr. McClimon set the bar 
pretty high.
    Unfortunately, Ms. Hilton here is following two men. So it 
should not be difficult.

           STATEMENT OF TODD SPENCER, EXECUTIVE VICE 
         PRESIDENT, OWNER-OPERATOR INDEPENDENT DRIVERS 
                          ASSOCIATION

    Mr. Spencer. Well, all I have to do is look both left and 
right and know I am in a heap of trouble.
    Anyway, good morning, Mr. Chairman, members of the 
committee. I very much appreciate the opportunity to be here 
today to speak on H.R. 5604, the Screening Applied Fairly and 
Equitably to Truckers Act of 2006. That legislation will 
significantly improve an inefficient, overreaching system, as 
well as provide a truly risk--based focus on the movement of 
potentially dangerous materials in our country.
    My name is Todd Spencer. I have been involved in trucking 
for over 30 years, first as a truck driver and then as an 
owner--operator; and I am here today as a representative of the 
hardworking men and women in this industry, Small Business 
Truckers and the Owner--Operator Independent Drivers 
Association.
    Our organization represents this group of people, and 
trucking is an industry that is comprised mostly of small 
business. Eighty percent of the trucks in the country are found 
in fleets of 20 or less, so small business is very much the 
backbone of our industry.
    As you know, the PATRIOT Act, passed by Congress, contained 
a provision requiring a background check for every driver that 
has a hazardous materials endorsement. This has been a source 
of great heartburn to our members and to our organization in 
that it was very--it overreached in so many areas, while it 
also missed in so many obvious areas to address the real 
security issues for truckers.
    The chief complaints that OOIDA hears about drivers about 
the present system are focused on the excessive out--of--pocket 
costs and potential of lost revenues caused by inefficiencies 
within the system. In addition, the shortage of facilities, 
lack of truck parking at facilities, available times of 
operation for the facilities and the amount of time necessary 
to get results are commonly voiced frustrations from drivers.
    While we don't fault lawmakers or agencies for the rapid 
response to the tragedy of 9/11, the background check 
requirement for Hazmat drivers contained in the PATRIOT Act was 
overly broad in its scope toward existing, veteran Hazmat 
drivers, while it seriously missed the mark in addressing some 
of the more obvious or likely ways a commercial vehicle could 
be used to do great harm.
    The typical owner--operator member of our organization has 
nearly 20 years of experience driving trucks. They are proven 
professionals, driving safely and responsibly, meeting the 
needs of our Nation. While only about 12 percent of them haul 
hazardous materials exclusively, roughly 70 percent of them 
currently have Hazmat endorsements for the occasional load that 
will come up that they will need to be in a position to haul. 
Well over 2 million of these Americans and their fellow drivers 
will have to undergo background checks when their current 
commercial driver's licenses come up for renewal next time and 
at subsequent renewals thereafter.
    OOIDA does not believe these veteran drivers are likely to 
turn into terrorists nor do we believe that most of the Hazmat 
cargoes they transport would have any appeal to terrorists. 
OOIDA strongly supports the concept of narrowing TSA's security 
threat assessments to focus on individuals wishing to haul 
hazardous materials that have been deemed as security sensitive 
by amending the PATRIOT Act's Hazmat background check 
requirements.
    OOIDA appreciates that in a time when there is a constant 
tug between homeland security and individual privacy and 
regulatory burden, this legislation acknowledges that it is as 
important for government to make its best efforts to narrow and 
focus its efforts to those areas where there may be a true 
homeland security threat and to those persons who have access 
to security--sensitive areas or materials, to delve into a 
person's privacy the minimal amount necessary by identifying 
those hazardous materials that are security sensitive. There is 
no longer a security reason to continue background checks on 
drivers of nonsecurity--sensitive hazardous materials.
    The association also appreciates the effort made in this 
bill to resolve overlapping background check requirements of 
truck drivers. A truck driver who has provided certain 
information for one background check should not have to go 
through an entire new process, such as being fingerprinted, 
facing more waiting time and more fees.
    Congressman Carnahan recently introduced H.R. 5560, the 
Professional Truck Driver Background Check Efficiency Act. That 
bill serves as a complement to the SAFE Truckers Act by 
providing TSA strong incentives to ensure efficiency and making 
sure that this system works the way that it should.
    The task force on highway safety is also an excellent 
initiative. OOIDA suggests the task force scope be expanded to 
study the homeland security risks to trucking in general. Other 
security threats already exist in the opportunities terrorists 
have to steal large trucks, to gain access to food or sensitive 
cargo. The most--the biggest vulnerability for truckers, and it 
is a nightly one, is insufficient places for them to park their 
trucks safely. Terrorists are not going to get a CDL and 
security--sensitive hazardous material permit if such vehicles 
are simply sitting ducks in so many places in the country.
    Although there are some significant security 
vulnerabilities in trucking, the SAFE Truckers Act initiates 
steps towards making the transport of hazardous materials by 
truck more secure overall without adding unnecessary burdens 
and expenses. We very much appreciate this committee's 
interest, look forward to supporting this legislation and 
seeing it come into law. Thank you.
    Mr. Linder. [Presiding.] Thank you, Mr. Spencer.
    [The statement of Mr. Spencer follows:]

                   Prepared Statement of Todd Spencer

    Good morning Chairman Lungren, Congresswoman Sanchez, and members 
of the Subcommittee. Thank you for inviting me to testify regarding 
H.R. 5604, the Screening Applied Fairly and Equitably to Truckers Act 
of 2006. That legislation that will significantly improve an 
inefficient, overreaching system as well as provide a truly risk-based 
focus on the movement of potentially dangerous materials in our 
country.
    My name is Todd Spencer. I have been involved with the trucking 
industry for over 30 years, first as a truck driver and an owner-
operator; and then as a representative of the hardworking, fiercely 
patriotic Americans behind the wheel of commercial motor vehicles. I am 
currently the Executive Vice President of the Owner-Operator 
Independent Drivers Association (OOIDA).
    Established in 1973, OOIDA is the national trade association 
representing the interests of independent owner-operators and 
professional drivers on all issues that affect small business truckers. 
The more than 140,000 members of OOIDA are small business men and women 
in all 50 states who collectively own and operate more than 230,000 
individual heavy-duty trucks. Small business is the backbone of 
trucking with 80% of the industry comprised of fleets of 20 or fewer 
trucks.
    The Association actively promotes the views of small business 
truckers through its interaction with state and federal government 
agencies, legislatures, the courts, other trade associations, and 
private entities to advance an equitable business environment and safe 
working conditions for commercial drivers. The hazardous materials 
endorsement and the Transportation Security Administration's security 
threat assessment process directly affects owner-operators, motor 
carriers and professional drivers, including members of OOIDA.
    As you know, the USA PATRIOT Act of 2001 contained a provision 
requiring background checks for individuals operating motor vehicles 
transporting hazardous materials. The TSA took on this responsibility 
initiating a security threat assessment requirement that has caused a 
considerable number of problems for state administrators, the trucking 
industry and the shipping community that depends on that industry. 
Initially the TSA did a name based check on all present hazmat 
endorsement drivers, but have since instituted an arduous threat 
assessment process that has required a new system to be put in place by 
state governments and federal contractors to complete fingerprinting 
and background checks.
    Small business truckers believe that the security threat assessment 
process that has been put in place by the TSA for general hazmat 
endorsements are an overreaching solution to a problem that has not 
been fully identified, and for which truckers are saddled with 
unnecessary burdens and expenses. As has been stated by a variety 
witnesses at previous hearing hold before your subcommittee on this 
topic, the system that the TSA has put in place is wrought with 
inefficiencies.
    TSA's background check/security threat assessment system is 
cumbersome and problematic for all involved parties. The chief 
complaints that OOIDA hears from drivers about the present system are 
focused on the excessive out-of-pocket costs and potential of lost 
revenue caused by inefficiencies within the system. In addition, the 
shortage of facilities, lack of truck parking at facilities, available 
times of operation for the facilities and the amount of time necessary 
to get results are commonly voiced frustrations.

Focusing TSA on Security Sensitive Hazardous Materials
    While we do not fault lawmakers or federal agencies for their rapid 
response to the tragedy of 9/11, the background check requirement for 
hazmat drivers contained in the Patriot Act was overly broad in its 
scope toward existing veteran hazmat drivers while it seriously missed 
the mark in addressing some of the more obvious or likely ways a 
commercial vehicle could be used to do great harm.
    The typical owner-operator member of our organization has nearly 
twenty years of experience driving trucks. They are proven 
professionals, driving safely and responsibly meeting the needs of our 
nation's citizens. While only about 12% of them haul hazardous 
materials exclusively, roughly 70% of them currently have hazmat 
endorsements, primarily to keep their load prospects open. Well over 2 
million of these Americans and their fellow drivers will have to 
undergo background checks when their current commercial drivers 
licenses (CDLs) come up for renewal next and at subsequent renewals 
thereafter.
    OOIDA does not believe these veteran drivers are likely to turn 
into terrorists nor do we believe that most of the hazmat cargoes they 
transport would have any appeal to terrorists. By requiring them to 
undergo TSA background checks, scarce resources in time and money are 
simply wasted with no corresponding benefit in reducing the likelihood 
of a terrorist incident.
    OOIDA strongly supports the concept of narrowing TSA's security 
threat assessments to focus on individuals wishing to haul hazardous 
materials that have been deemed as security sensitive by amending the 
Patriot Act's hazmat background check requirements.
    A general hazardous materials endorsement for loads that are not 
classified as "Security Sensitive" should be preserved in the CDL 
licensing process for truck drivers. Hazardous materials that are not 
deemed to be security sensitive do pose safety risks to truck drivers, 
dockworkers, the general public and first responders. OOIDA believes 
that along with mandated training and increased testing requirements 
for those wishing to obtain a Commercial Drivers License, compulsory 
training in the handling and transporting of non-security sensitive 
hazardous materials must also be a part of the licensing/endorsement 
process.
    On behalf of the members of OOIDA and truckers across the country, 
I want to thank Mr. Lungren, Ms. Sanchez, Mr. Thompson, and other 
members of the Homeland Security Committee for introducing H.R. 5604, 
the Screening Applied Fairly and Equitably to Truckers Act of 2006. 
This legislation outlines a bold effort that is needed to bring 
commonsense back into homeland security policies that apply to American 
truck drivers. The SAFE Truckers Act will significantly improve a 
system that has already created unnecessary expenses in time and money 
for the federal government, state governments and thousands of 
hardworking taxpayers.

The Screening Applied Fairly and Equitably to Truckers Act of 2006
    OOIDA appreciates that in a time when there is a constant tug 
between homeland security and individual privacy and regulatory burden, 
this legislation acknowledges that it is important for the government 
to make its best effort to narrow and focus its efforts to just those 
areas where there may be a true homeland security threat; to just those 
persons who have access to security sensitive areas or materials; to 
delve into a person's privacy the minimal amount necessary to 
accomplish the policy goal; and to vigorously protect the public 
release of any person's private information. By identifying those 
hazardous materials that are security sensitive, there is no longer a 
security reason to continue background checks on drivers of non-
security sensitive hazardous materials.
    The Association also appreciates the effort made in this bill to 
resolve overlapping background check requirements of truck drivers. A 
truck driver who has provided certain information for one background 
check should not have to go through an entire new process, such as 
being re-fingerprinted and facing more waiting time at processing 
centers, or face the extra cost, to get very similar background check 
for a different government agency.
    Congressman Carnahan recently introduced H.R. 5560, The 
Professional Driver Background Check Efficiency Act. That bill serves 
as a compliment to the Safe Truckers Act by providing the TSA with 
strong incentives to ensure that the security threat assessment systems 
that they have in place are designed and implemented with the highest 
degree of efficiency.
    We want to thank the sponsors of Safe Truckers Act for including 
provisions for appeals and waiver processes. Instituting an appeal 
process is very important for persons to prove whether negative 
information collected during the background check pertains to them and 
whether they have been a victim of mistaken identity or identity theft. 
Instituting a waiver process is very important to give persons who have 
turned their life around an opportunity to prove that they are not a 
security threat.
    OOIDA encourages the committee to ask its proposed Task Force on 
Disqualifying Crimes to produce its recommendations in a format that 
recognizes that different states have different definitions of various 
crimes. What is a felony in one state may be a misdemeanor in another. 
What is murder in one state may be manslaughter in another. With such 
differences in the same named crime, a trucker in one state may be 
disqualified while a trucker who committed the same act in a different 
state may be approved. The list of disqualifying crimes produced by the 
task force should really be a list of elements of crimes or 
combinations of elements of crimes. The task force or agency will need 
to assemble a reference of different states' crimes to make such a 
determination.
    The Task Force on Highway Safety is also an excellent initiative. 
OOIDA suggests the task force's scope be expanded to study the homeland 
security risks to trucking in general, not just those hauling security 
sensitive information. Other security threats already exist in the 
opportunities terrorists have to steal large trucks, gain access to our 
food supply or acquire advanced technologies. As we say, if you bought 
it, a truck brought it. The vulnerability and need for security of all 
trucks on the road is one that has received scant attention from 
Homeland Security. We have long said that in the many areas where there 
is insufficient truck parking, truckers are forced to improvise by 
finding parking in on-ramps, exit ramps, the side of the road and out--
of-the-way industrial areas that close for the night. These are just 
the kind of places that make truckers vulnerable. Terrorists are not 
going to get a CDL and security sensitive hazmat permit if such 
vehicles are "sitting ducks" in so many places in the country.
    Finally, until the TSA has the ability to complete or assess 
background checks on Mexican, Canadian and other truck drivers of 
foreign origin that are at the very least as stringent and 
comprehensive as those being completed on American drivers, foreign 
truck drivers should not be provided with clearance to haul security 
sensitive hazardous materials. OOIDA sees no rationale, from a 
security, fairness or public policy standpoint, to give persons from 
foreign countries any leniency to this directive though in past 
rulemakings TSA has shown a willingness to do just that. OOIDA 
understands that Canada may have a similar security check in place for 
its drivers. But an analysis must be made, with public comment, 
comparing the two systems before the TSA can determine that the 
Canadian system is an adequate substitute for U.S. requirements. OOIDA 
is unaware of any such system in Mexico, and if there were, would 
consider its accuracy suspect.

Conclusion
    Although there are some significant security vulnerabilities in the 
trucking industry, the SAFE Truckers Act initiates steps towards making 
the transport of hazardous materials by truck more secure overall 
without adding unnecessary burdens and expenses to the federal 
government or commercial motor vehicle operators. Focusing the 
resources of the Transportation Security Administration on ensuring 
that individuals with red flags in their backgrounds are not being 
afforded access to haul security sensitive hazardous materials is an 
excellent starting point. There are intensive background check/security 
assessment processes for truck drivers already being utilized by other 
federal agencies. Integrating those background checks with the TSA and 
allowing agencies to look to one database for drivers with security 
sensitive clearance is consistent with both the principles promoted by 
the 9/11 Commission and the mandates of the highway bill that passed 
last year. It will also save the government and private individuals 
both time and money by improving efficiency.
    Hazardous materials that are not deemed to be security sensitive do 
pose safety risks to truck drivers, dockworkers and first responders. A 
general hazardous materials endorsement for loads that do not qualify, 
as "Security Sensitive" should be maintained in the licensing process 
for truck drivers. Along with mandated training and increased testing 
requirements for those wishing to obtain a Commercial Drivers License, 
compulsory training in the handling and transporting of non-security 
sensitive hazardous materials must be a part of the licensing/
endorsement process.
    Chairman Lungren, Congresswoman Sanchez, and members of the 
Subcommittee, thank you for providing me with this opportunity to 
testify on behalf of the members of the Owner-Operator Independent 
Drivers Association and thank you for introducing the SAFE Truckers Act 
of 2006.
    I look forward to answering questions from the members of the 
Subcommittee.

    Mr. Linder. Ms. Hilton, I am going to ask you to hold. We 
have less than 10 minutes left to get to a vote. We will recess 
the committee upon the call of the Chair. Thank you.
    [Recess.]
    Mr. Lungren. [Presiding.] The Subcommittee on Economic 
Security, Infrastructure Protection, and Cybersecurity will 
come to order. I have been assured that it reflects on my 
presentation that no one else is coming back. I apologize to 
the witnesses for not having been here earlier. We had a small 
issue on the floor about the war in Iraq, and I was responsible 
for handling the time, the remaining time--or the last hour, 
which was this morning's hour.
    We completed that, and the vote is taking place, and 
because it is the last vote of the day, most Members are 
endeavoring to return to their districts right now. So I will 
endeavor to play the role of all the members here as we 
continue.
    And as I understand it, we have completed the testimony of 
two of the panelists, and so now I would recognize Ms. Cynthia 
Hilton, Executive Vice President of Governmental Affairs of the 
Institute of Makers of Explosives to testify.

          STATEMENT OF CYNTHIA HILTON, EXECUTIVE VICE 
   PRESIDENT OF GOVERNMENTAL AFFAIRS, INSTITUTE OF MAKERS OF 
                           EXPLOSIVES

    Ms. Hilton. Thank you so much, Chairman Lungren. I 
appreciate the opportunity to testify important issues 
surrounding security clearances of people authorized to 
transport by motor vehicle certain security--sensitive 
hazardous materials in commerce. My testimony is presented on 
behalf of the American Chemistry Council, American Pyrotechnic 
Association, the Chlorine Institute, the Institute of Makers of 
Explosives, the National Association of Chemical Distributors, 
the National Industrial Transportation League, the Nuclear 
Energy Institute, the Fertilizer Institute, and as of this 
morning, the American Petroleum Institute.
    We are representative of the shipper community. Since 
virtually all hazardous materials shipments move at some point 
by motor vehicle, the industries we represent are dependent on 
the availability of qualified drivers to safely and securely 
move hazardous materials for manufacturing use. We have a long 
history of proactive attention to the safety and secure 
transportation of our products.
    Transportation is both intermodal and international. We 
believe that the current HME process warrants reform. You are 
to be commended for your leadership and attention to this 
important issue. Not all placard and shipments of hazardous 
materials present security sensitivities. The current suite of 
disqualifications may be too sweeping with the consequence that 
some persons who do not present a terrorist threat are kept 
from gainful employment.
    We fully support efforts to integrate, streamline and rank 
security credentialing requirements so that individuals will be 
subject to no more than one fingerprint--based credential, key 
to the level of security clearance their job requires. On this 
latter point, we understand redundancy. Security assessment is 
a goal of this legislation; however, in its current form, the 
objective is not quite achieved.
    Within DHS alone, we currently count four fingerprint--
based security assessments that could apply to drivers of 
hazardous materials. This legislation proposes a fifth 
credential for a subset of that driver population. Without 
ranking these credentials, opportunities for cost savings are 
lost, opportunities for misuse increase, and instances of 
noncompliance are likely to rise due to confusion about the 
scope of various credentials.
    Without losing the momentum created by this legislation, we 
recommend that TSA security credentials for drivers of 
hazardous materials be separated from DOT and State licensing 
to operate vehicles or to demonstrate knowledge of hazardous 
materials regulations; that the security screen to attain an 
HME be reduced to a records check; that the scope of the TWIC 
be modified to include drivers transporting security--sensitive 
materials; that the TWIC allow holders all the privileges 
afforded holders of an HME, plus those for transporting 
security--sensitive materials; that all of DHS's fingerprint--
based clearances be ranked to determine which standards are 
higher, and then allow the individual with the higher--rank 
clearance the rights afforded lower--rank clearance or, if 
deemed equivalent, to consolidate the security clearances into 
one program, which would be the initialSec. sion of the TWIC; 
and finally, that the legislation explicitly provide that non--
Federal transportation security credentials be preempted.
    A couple of words about our concerns of the penalty 
provisions of the legislation. We question the stringency of 
the penalties given other criminal and civil statutes in view 
of the fact this is a credentialing bill and that the most a 
shipper can reasonably do is verify the credential of the 
receiving driver.
    We strongly recommend that terms used in the bill to 
signify aggravated violations or crimes be defined to ensure 
equal application of the law. We strongly recommend that the 
subcommittee reinstate, knowingly, a standard of liability for 
civil violations and a willful standard for criminal acts.
    In closing, we would be remiss if we did not thank you for 
your understanding of our concerns about a statutorily dictated 
list of security--sensitive materials. History has shown 
materials of interest to terrorists has changed over time. It 
is appropriate for DHS to have the flexibility to adjust 
through rulemaking materials that would be subject to these 
requirements.
    And finally, we have submitted an attachment to our 
testimony with specific comments and recommendations for 
refinements to the bill. We ask the committee to consider these 
recommendations.
    This concludes my testimony. I would be happy to answer any 
questions.
    [The statement of Ms. Hilton follows:]

                  Prepared Statement of Cynthia Hilton

    Chairman Lungren, members of the Subcommittee, I appreciate the 
opportunity to testify on the important issues surrounding security 
clearances of persons authorized to transport by motor vehicle certain 
security sensitive hazardous materials (SSHM) in commerce.
    My testimony is presented on behalf of the American Chemistry 
Council, the American Pyrotechnic Association, The Chlorine Institute, 
the Institute of Makers of Explosives, the National Association of 
Chemical Distributors, The National Industrial Transportation League, 
the Nuclear Energy Institute, and The Fertilizer Institute. We are 
representative of the shipper community. Since virtually all hazardous 
materials shipments move at some point by motor vehicle, the industries 
we represent are dependent on the availability of qualified drivers to 
move, safely and securely, the hazardous materials we manufacture and 
use. We have a long history of proactive attention to the safe and 
secure transportation of our products - transportation that is both 
intermodal and international.
    Our efforts to address transportation security concerns have been 
aided by government requirements to assess vulnerabilities and to take 
appropriate corrective actions to bolster the security of our 
operations. Private efforts to vet the suitability of drivers and other 
transportation workers stood to be enhanced by government oversight 
that could assess criminal record databases and tap intelligence about 
security risks. Before the events of September 11, 2001, the Department 
of Defense and Nuclear Regulatory Commission were engaged in these 
vetting operations. Since September 11th, 2001, however, we have seen a 
plethora of government-mandated security clearance requirements that 
are duplicative for individuals, unduly restrictive in their 
disqualifications, and unnecessarily costly. We believe that 
improvements are warranted.
    The legislation we have been asked to comment on today proposes to 
add yet another fingerprint- based security credential to those already 
in existence. Within the Department of Homeland Security (DHS) alone, a 
driver could potentially be subject to the Transportation Security 
Administration's (TSA) threat assessment program for commercial drivers 
of hazardous materials (HME), to TSA's transportation worker 
identification credential (TWIC), to TSA's criminal history records 
check for unescorted access to security identification display areas, 
and to the Customs and Border Protection's free and secure trade 
clearance to expedite border crossings of trucks that provide security 
information in advance. The creation of the security sensitive 
materials permit for essentially the same population frustrates 
expectations that this legislation would simplify security clearance 
requirements for drivers. We would like to suggest an alternative means 
to accomplish the goal to create a fingerprint-based security 
credential for security sensitive materials, as well as recommendations 
to further simplify driver background checks generally, and to identify 
aspects of this legislation deserving of support.

TWIC
    We are struck with the redundancy suggested by the pending 
legislation. The proposal would require a new permit to transport SSHM 
by motor vehicle, ostensibly indicating that the recipient is being 
held to a higher standard than the holder of an HME. However, the 
legislation fails to identify what standards would be used by DHS to 
disqualify a permit applicant, leaving this critical determination up 
to the discretion of the department. At the same time, the legislation 
provides that individuals holding a TWIC would be deemed to have met 
the security clearance requirements of the new permit. However, the 
disqualifications underpinning the HME are the same as used in the 
TWIC. This legislation unnecessarily complicates the security vetting 
process without enhancing security or providing relief to HME drivers 
of non-SSHM. We strongly recommend that the scope of the TWIC be 
broadened to simply provide that a holder of a TWIC is also eligible to 
transport SSHM by motor carrier if the holder is otherwise qualified to 
operate a commercial motor vehicle. We also recommend that the HME 
threat assessment required by 49 U.S.C. section 5103a be converted to a 
records-based, not a fingerprint-based, security check. This change 
will provide appropriate regulatory relief for drivers transporting 
placarded shipments of the hazardous materials that are not deemed 
SSHM. Since the TWIC requires the more stringent fingerprint-based 
security check, it should be made clear that a holder of a TWIC, who is 
otherwise qualified to operate a commercial motor vehicle, should be 
eligible to apply for an HME without being subject to the section 5103a 
threat assessment.
    The promise of the TWIC was that it would be the sole credential 
necessary for transportation workers subject to security assessments. 
The card would establish identity and would be issued after a 
determination that the cardholder did not present a security risk. To 
propose anything in addition is to penalize legitimate, qualified 
workers.

Penalty Provisions
    The penalty provisions in the legislation were initially lifted in 
whole cloth from federal hazardous materials transportation law. 
Despite some changes, we remain concerned about the effect of these 
provisions. First, this is a credentialing statute, not a statute 
directed at harms that could be caused by individuals irrespective of 
whether they do or do not possess a TWIC/SSHM credential. These later 
violations and criminal acts are the subject of other federal statutes 
and are unnecessary here.
    We understand that a justification for higher civil penalties stems 
from the provision that makes it a violation to offer or cause security 
sensitive materials to be transported by motor vehicle if the operator 
does not hold a valid TWIC/SSHM credential. Even in instances where 
security sensitive material is offered or caused to be transported by a 
driver not holding a valid TWIC/SSHM credential, the penalty should be 
in the thousands, not tens of thousands of dollars. Keep in mind that 
the offeror only has the wherewithal to check the credential of the 
driver initially receiving the shipment. The security statuses of 
individuals who may subsequently handle the shipment for a carrier are 
beyond the offeror's control. Additionally, each day the violation 
continues is a separate offense subject anew to accumulating fines. The 
penalty caps should be limited accordingly.
    A number of terms are used in the penalty provisions to trigger 
more severe consequences. These terms - "bodily injury", "serious 
illness", "severe injury", and "substantial destruction of property" - 
are undefined. Without definition, the interpretation of these board 
terms will likely result in unequal application of the law and justice 
will not be served.
    Finally, the penalty provisions have been stripped of commonly 
accepted standards of culpability leaving a strict standard of 
liability. The Subcommittee should reinstate a "knowingly" standard of 
liability for civil violations and a "willfully" standard for criminal 
acts.

Preemption
    The proposal's definition of "commerce" suggests that the SSHM 
credential is to apply to motor carrier movements of SSHM in 
intrastate, interstate and foreign commerce. However, neither this 
credential nor the TWIC is given preemptive effect over non-federal 
transportation security credentials. We recommend that the legislation 
explicitly provide that non-federal transportation security credentials 
for activities covered by the TWIC (and by extension the motor carriage 
of SSHM) be preempted. No state or locality can possibility have more 
resources or capability than the federal government to assess threats 
and determine protective actions for a network of critical 
infrastructure that operates nationwide. A panoply of non-federal 
credentials is more likely to lead to confusion and non-compliance with 
federal requirements. All additional or more stringent non-federal 
security credentialing requirements will do is place an unjustified 
burden on legitimate transportation workers.

Provisions Deserving Support
    Determination of Security Sensitive Materials: We fully support the 
provision that would task DHS with determining by notice and comment 
rulemaking to determine the type and quantity of materials to be 
designated "security sensitive". History has shown that materials of 
interest to terrorists have changed over time. It is appropriate for 
DHS to have the flexibility to adjust through rulemaking materials that 
would be subject to these requirements.
    Elimination of State Administrative Middleman: We support 
provisions in the bill that remove the credentialing of SSHM drivers 
from the commercial vehicle licensing process. State governments do not 
control the federal databases through which security checks are vetted.
    Memorandum of Understanding: We support the provision directing the 
Secretaries of DHS and the Department of Transportation to enter into a 
memorandum of understanding about the implementation of transportation 
credentialing requirements.
    Task Force on Disqualifying Crimes: We support the establishment of 
a task force to review the appropriateness of current disqualifying 
crimes. In particular, we believe that the stringency of some automatic 
life-time disqualifications warrant review when the triggering event is 
a non-violent felony.
    Task Force on Redundant Checks: We fully support efforts to 
integrate, streamline and rank security credentialing requirements so 
that individuals will be subject to no more than one finger-print based 
credential based on the level of security clearance their job requires.

Other Recommendations
    I would like to submit for the record a document that more fully 
identifies and describes recommended modifications to the pending 
legislation.
    This concludes my testimony.

    Mr. Lungren. Thank you.
    And I thank all of you for your testimony. I know that a 
number of you have raised in your written testimony and in your 
oral comments concerns about the potential redundancy of the 
bill with the current fingerprint--based checks required--
already required.
    Mr. Lungren. [Continuing.] I can just assure you it is the 
intent of this committee to resolve that problem. There are 
certain issues we have to address initially in writing the bill 
that caused us to write it in the way we did, but we certainly 
not only agree with your suggestions but it is our intent to do 
that.
    Let me ask the three of you, the TSA stated at the end of 
their prepared testimony that the current HME system is, quote, 
unquote, working well. Is this opinion shared by all three of 
you representing your different interests?
    Mr. McClimon. Chairman, I think it is challenging at best. 
I would not use the words ``working well.'' There is in various 
States a lot of time and certainly expense involved. I know in 
our case that over a 5--year period it will cost our company 
$1.5 million or $300,000 a year in expense as well as just some 
lost time and work, so I would not say that it is working well.
    Mr. Lungren. Mr. Spencer.
    Mr. Spencer. I can concur. Only when I talk about the cost 
to our company, I am talking about to an individual truck 
operator, and that is what most of trucking is.
    We have mentioned here at the hearing the costs that are 
associated with the HME background check, which are 
significant. Now we are looking at the cost for a TWIC card on 
top of that. But those are just a very small portion of the 
costs. Because, for most truck operators, our members, they are 
going to have to close their business, shut their business down 
for at least a full day to accomplish this. So they can lose 
between $500 and $1,000 per day per truck just shutting down 
that one day.
    They also have the expense of traveling to one of these 
facilities that I mentioned in my testimony that generally is 
not trucker--friendly and for the most part it is not really 
people--friendly and that hours are very, very limited. They go 
through that ordeal.
    And for a trucker, for a truck driver, all the time that is 
associated with this is on--duty time. It must be logged and 
charged against the available hours you can have to work for 
that week.
    I am thinking the TSA gentleman said there were over a 
hundred sites now. We have one member that the closest site to 
get one done was 170 miles from his house. This is a tremendous 
obstacle. And that particular member had had numerous 
background checks done over the past 10 years, been 
fingerprinted a half a dozen times for DOD, DOE. Talk about 
redundancy. The normal person would scream.
    Mr. Lungren. Ms. Hilton.
    Ms. Hilton. I would like to align myself with the comments 
of these gentlemen and just point out that it is too broad. It 
is too broad in a number of areas, too broad in materials it 
covers, too broad in some of its disqualifications, and it is 
unnecessarily complicated with the opportunity to engage States 
as middlemen in this matter.
    I mean, this is a security credential. This is something 
that the Federal Government knows far more about who those 
individuals are, and it is hard for us to understand how States 
add to that process.
    Mr. Lungren. Again, I was not here for the oral testimony, 
but one of the concerns that TSA raised in their written 
comments was that, in the end, trucking companies would still 
require their drivers to obtain the SSmat permit, and so it 
really may not make any difference. We are going through a big 
process to try and divide those things out, and trucking 
companies are just going to require them all to get it anyway. 
Can anybody address that concern?
    Mr. McClimon. I think the concern is just the repetition of 
activity that needs to take place. So what we want to try to do 
or are hoping this bill does is cut through some of that red 
tape and just make the whole process easier for our employees 
and, thus, for our customers.
    Mr. Lungren. Our concept was there is a difference between 
Hazmat and security--sensitive materials and that, because 
there is a difference, presumably you wouldn't have all of your 
drivers required to have the security--sensitive material 
credential. If that is not the case, then we are going through 
a whole lot of process for no need whatsoever.
    Ms. Hilton. Can I just make an observation here? One of the 
points we are trying to make in our testimony is that there are 
a number of fingerprint--based credential programs that are run 
by TSA, and one of the benefits of this legislation is it is 
trying to tell people you need to look at that and rank them. 
That is the term that we use.
    When you look at them, either they turn out to be the same 
standard, in which case you need to eliminate them and rely on 
one thing--and we use the term TWIC because that was the 
promise of what the TWIC was--or if some of those credentials 
are in fact justified to be some kind of higher standard, then 
you need to prioritize them and give people with the higher 
ones rights over all the lower ones.
    At the end of the day, whether--you asked, are we doing 
anything here? This is incredibly important. The goal that we 
need to be fixed on is, at the end of the day, people will have 
one credential.
    Mr. Lungren. We can have one credential. You can have a 
credential that has different rankings on it. I mean, you can 
have one document or one card, but we could have a card that 
has different elements on it which would show that you have got 
an SSmat versus a Hazmat rating and so forth.
    I just happen to think that it is silly for us to consider 
security--sensitive materials the same as Coca--Cola syrup.
    Ms. Hilton. We all agree.
    Mr. McClimon. We all agree on that.
    In our testimony we said that, that we handle 2,000 
hazardous material shipments a day, but only 16 of those would 
be what we call supersensitive shipments.
    Mr. Spencer. To go along in regard to the individual 
drivers, while among our membership 70 percent have hazardous 
materials endorsements but only 12 percent haul hazardous 
materials on a regular basis, and of those they won't even be 
the kind that would be security sensitive all the time. So we 
would be talking about making this change would simplify, would 
trim the process down and make it much more focused on where 
the real security issues are.
    Mr. Lungren. Let me just say sometimes we have to explain 
why we come up with new legislation. We have to explain to 
constituents why it makes sense in short order, knowing that we 
still have a lot to do in terms of firming this bill up. But 
you recognize what we are trying to do. You have general 
agreement with what we are trying to do. How would you 
succinctly state that this would improve the situation with 
respect to the folks that you represent, in a way that I can 
make it understandable for other members who can make it 
understandable for their constituents? I call it the town hall 
test. You explain it at a town hall you are having so people 
say, yeah, that makes sense.
    Mr. Spencer. From our perspective it would significantly 
decrease the economic burden and sort of the hassle factor for 
commercial truck drivers that work in commerce, while it also 
would allow the security agency that is supposed to be focused 
on security to focus on those particular commodities that 
really do present a hazard and hopefully come up with some 
recommendations that address our security vulnerabilities that 
they haven't thus far, like the parking and--
    Most drivers are most concerned with someone coming out and 
putting a gun to their head and saying I am taking this load, 
if they are actually hauling something that could do great 
harm. That is the vulnerability they see. And it continues 
every night. Drivers struggle to find places to park safely.
    Ms. Hilton. I would just say that what we have heard is, 
again, on this redundancy thing, it may have been brought to 
your attention that just in the last month there has been a 
final rule at TSA about new fingerprint base checks if you go 
into an airport facility, and the TWIC just came out for port 
facilities. So there is this seeming proliferation of these 
requirements.
    From everything that we have heard from your staff and what 
your comments are, that at the end of the day the goal of this 
legislation is going to be to eliminate that redundancy. That 
is incredibly important.
    Again, some of us spoke to the need to include a preemption 
factor here. I like to think --- I don't know how you are if 
you lose your credit card, but I am one of these not so smart. 
I only have my one credit card. Because if I lose it, I want to 
able to report my one card, not the 56 cards.
    If we don't somehow bring this back to a more reasonable 
level, I think people--do you every day get up and check the 50 
cards you have in your wallet? Maybe not. We need to get it 
back to a little more reasonable--
    Mr. Lungren. My wife doesn't allow me to have 50 cards. If 
I lose my credit card, I call her and say help.
    Ms. Hilton. Smart woman.
    Mr. Spencer. I can add on to that comment, that thought 
just a little bit, but our organization is very concerned about 
privacy and about security of information, and we are very 
concerned with the proliferation of entities that feel that 
they are entitled to have that personal information.
    We have talked about credit cards and things like that. 
Just last week I got a letter from the Department of Army 
advising me that my records were included in those that were 
burglarized from the VA employee's house.
    Generally I wouldn't even had the courtesy of anybody 
notifying me. But I have learned through the years that if you 
minimize the places where your information is, you also 
minimize the opportunity for it to be used in ways you don't 
want.
    Mr. Lungren. I just wanted to tell you, since you just told 
me that, I know approximately how old you are. It was only 
after a certain year. You just revealed something to me in that 
statement.
    The other thing that I have been concerned about in this 
entire effort that we have in our response to the war on terror 
is the balance. And if we decide that there are certain 
disqualifiers with respect to drivers who would be driving SS 
material, that may be different than what we do with those who 
are disqualified from driving Hazmat, and why have the scope so 
wide that you are denying some people an opportunity to work 
when there is no necessity to do that?
    Ms. Hilton. We agree.
    Mr. McClimon. We agree.
    Mr. Lungren. I am concerned particularly about some folks 
in our communities who may run afoul of the law in their 
younger years and are attempting to try and get a reasonable, 
responsible job, of which trucking, if they have the skills, is 
a good one; and to disqualify them unnecessarily is something I 
do not want to do.
    So that is one of the reasons I am strongly behind this 
effort. Let's rationalize the process so that, in our effort to 
respond to real concerns on terror, we are not letting the 
terrorists win by causing us to overreact and harming our 
people unnecessarily. That is a general feeling I have, but 
specifically in this area I think it is important.
    We have to understand the distinction between Hazmat and 
SSmat or whatever we are going to call it--smatter. Try to 
pronounce it in some way.
    I just have to say your testimony is so complete I don't 
have any more questions. I thank you for your presentation. I 
thank you for your reaction to our bill. Any further thoughts 
you have, if you would share with the committee, and we will on 
a bipartisan basis take that and try to work that into our 
considerations.
    We hope to act on this bill quickly. We hope to get 
something through our subcommittee, get it through the full 
committee, get it on the floor and work with the Senate in 
making some strides here. Because I happen to think it is 
important for us to get the mechanism moving and remove the 
duplicative effects that are out there already and introduce 
this sense of rationality into distinguishing between two 
different worlds. There is a difference from the world of SSmat 
and Hazmat, and we ought to recognize it and put it into 
practice.
    With that, I thank you; and the hearing--there has got to 
be some special words I use here at the very end. I tell you 
that we are going to have additional questions perhaps for you 
in writing, and we would ask if you would respond to those in 
writing if you receive them. The hearing record will be held 
open for 10 days.
    Without objection, the committee stands adjourned.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
